AU99-019 September 1999
Home | Other Reports
Legal Services Corporation
O F F I C E   OF   I N S P E C T O R   G E N E R A L
Review of Case Statistical Reports
Grantee: Monroe County Legal Assistance Corporation
Recipient No. 233130
Final Report No. AU99-019
September 1999
TABLE OF CONTENTS
EXECUTIVE SUMMARY
BACKGROUND
OBJECTIVES, SCOPE AND METHODOLOGY
RESULTS OF AUDIT
CASE SERVICE REPORTING
Case Service Reporting Requirements
LSC Uses of Grant Activity Report
Examination of Reported Cases
CLOSED CASES
CLIRP Cases
Untimely Closure of Cases
Other Problems with Closed Case Counts
OPEN CASES
Rejected Cases
Untimely Closure of Cases
Other Problems with Open Case Counts
ADDITIONAL CASE MANAGEMENT ISSUES
Eligibility Determinations
CONCLUSIONS
RECOMMENDATIONS
SUMMARY OF GRANTEE COMMENTS AND OIG DECISIONS
APPENDIX I - LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
APPENDIX II - GRANTEE'S COMMENTS ON DRAFT REPORT
EXECUTIVE SUMMARY
The 1998 Grant Activity Report submitted by Monroe County Legal
Assistance Corporation (grantee) overstated the number of cases closed during the
year and open at year-end.  The grantee reported 6,684 closed cases but only an
estimated 4,104 cases qualified to be reported as closed during 1998.  Therefore,
the reported closed cases were overstated by 39 percent.  A total of 4,953 cases
were reported as open, but the grantee had an estimated 2,607 open cases at
year-end, a 47 percent overstatement.
There were two primary causes of the overstatement of closed cases.  First,
the grantee incorrectly reported 1,410 cases processed by the Community Legal
Intake and Referral Project, a centralized intake and referral service for all civil legal
service providers in Monroe County.  Second, an estimated 868 cases were
reported as closed in 1998 even though legal activity had ceased prior to 1998.  In
addition, an estimated 302 cases were overstated because: cases where clients'
income exceeded LSC eligibility requirements were reported, some cases not
funded by LSC were reported, no legal services were provided for some cases,
there was no support for some cases in the grantee's automated information
system and some cases were duplicates.
Open cases at year-end were overstated for several reasons.  The grantee's
branch office reported incorrectly 1,227 cases in which the potential clients had
been rejected and did not receive any legal services.  An estimated 883 open cases
should have been closed because legal activity had ceased.  Most of these cases
should have been closed in 1997 or earlier.  A review of sample cases indicated
that 163 case files could not be located and therefore should not have been
reported.  There was no support for 66 cases in the grantee's automated
information systems and 7 additional cases were duplicates.
Two other issues, not directly related to case counting, were disclosed
during our review. Citizenship eligibility determinations were not documented in 31
of 170 sample case files reviewed.  In addition, five case files did not include
income eligibility determinations.  This problem primarily occurred with cases
handled by the grantee's two sub-grantees.
Recommendations to correct the above problems are on page 9.
BACKGROUND
Monroe County Legal Assistance Corporation is a nonprofit New York entity
organized to provide legal services to indigent individuals who meet established
eligibility guidelines.  Its priorities include housing, income maintenance, family, and
consumer issues.  The grantee is headquartered in Rochester, New York and has a
branch office in Geneva County.  Its staff included approximately 15 attorneys, 8
paralegals, and 9 other staff who provided computer, accounting, and
administrative support services.  In 1998, the grantee received funding totaling
about $1.7 million.  About 51 percent or $840,000 came from LSC. The grantee
gave sub-grants of $53,300 to Volunteer Legal Services Project and $84,000 to
Oak Orchard Legal Services.
In 1998, the grantee paid the Community Legal Intake and Referral Project
(CLIRP) $18,000 for providing client intake and referral services.  CLIRP provided a
centralized switchboard service (two receptionists) for the grantee and two other
legal service providers and a centralized intake and referral service for all civil legal
service providers in Monroe County.  The CLIRP receptionists forwarded calls to
the appropriate legal service provider when the caller knew whom they had to
reach.  All other calls were sent to CLIRP intake staff who screened the calls to
ascertain which, if any, legal service provider in Monroe County would be
recommended to the caller.
The grantee prepares and submits an annual Grant Activity Report to LSC on
key aspects of its workload.  The report includes statistics for basic field services
and Private Attorney Involvement programs financed with LSC funds, including the
number of open and closed cases, types of cases, and the reasons for closing
cases.  For calendar year 1998, Monroe County Legal Assistance Corporation
reported 4,953 open cases and 6,684 closed cases to LSC.
The grantee's annual closed case statistics are its primary workload
indicators and performance measures.  In contrast, the reported open cases are not
a significant measure of a grantee's volume of work or productivity.  Open cases
are simply the cases that have not been closed as of the last day of the reporting
period.  These open cases will eventually be closed and reported in the Grant
Activity Report.  In fact, most will be reported as closed in the following year.
Even though the number of open cases has limited utility as a productivity
indicator, it is important that open cases be accurately reported.  If the open case
count is inaccurate, future reporting of closed cases, in all probability, also will be
inaccurate.  In addition, inaccurate reporting of open cases may indicate
deficiencies in the underlying case management system used to produce the data
for the Grant Activity Report.  These deficiencies could result in the less effective
management of legal services delivery.
OBJECTIVES, SCOPE, AND METHODOLOGY
The primary objective of this review was to determine whether the grantee
provided LSC with accurate case statistical data in its 1998 Grant Activity Report.
The Office of Inspector General performed this review from April 5-16,
1999, at the grantee's main office, branch office, and the offices of both sub-
grantees.  The OIG examined the grant proposal submitted to LSC by Monroe
County Legal Assistance Corporation for 1998 and the grantee's 1998 Grant
Activity Report.  During the on-site visit, the OIG interviewed and collected
information from the grantee's executive director, managing attorneys, staff
attorneys, paralegals, intake staff, information system specialist, and other support
staff.
The OIG also obtained and reviewed the data in the grantee's automated
case management systems to determine if the case statistical data reported to LSC
in the Grant Activity Report was consistent with information in client case files and
in compliance with applicable LSC reporting requirements.
The OIG generated a random sample of 170 closed and open client cases for
detailed review. The sample cases were selected from the grantee's case
management systems. The OIG is 90 percent confident that the error rate for
closed cases was between 14 and 26 percent. The most probable error rate for
closed cases was 20 percent. The OIG is 90 percent confident that the error rate
for open cases was between 35 percent and 51 percent. The most probable error
rate for open cases was 43 percent. We projected the results of our review of the
sample to estimate the number of cases that should not have been reported. Actual
overstatements were eliminated from the universe before making our projections to
preclude double counting of errors.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public Law
105-119, incorporated by reference Public Law 104-134, .509(g).
RESULTS OF AUDIT
CASE SERVICE REPORTING
The grantee's 1998 Grant Activity Report overstated the number of cases
closed during the year and the number remaining open at year-end.  Closed cases
were overstated because the grantee incorrectly reported cases handled by CLIRP,
a centralized intake and referral service for all civil legal service providers in Monroe
County.  Additional overstatements occurred because cases were reported as
closed in 1998 but legal activity had ceased in prior years.  Open cases were
overstated because cases that had been rejected by the grantee were reported to
the LSC.  Additional overstatements occurred because cases reported as open at
the end of 1998 should have been closed in prior years.
The accuracy of the Grant Activity Report was also affected by: missing
case files; lack of support in the information systems; duplicate cases; cases where
clients' income exceeded the eligibility standards prescribed by LSC; cases not
funded by LSC; and cases in which no legal service was provided.
Case Service Reporting Requirements
LSC requires grant recipients to submit an annual Grant Activity Report
summarizing the previous year's legal services activity wholly or partially supported
with LSC funds.  The information in the report includes total number of cases
worked on, types of legal issues, number of open and closed cases, and the
reasons cases were closed.  The report also includes information on Private
Attorney Involvement cases.  The Case Service Reporting Handbook and Grant
Activity Report instructions provide reporting criteria for cases.  Reported cases
must be for eligible clients and within the recipient's priorities.  Eligibility is based
on income and citizenship determinations and must be documented.
LSC Uses of Grant Activity Report
LSC uses grantee case statistical information to support the Corporation's
annual budget request and as a performance measure in the performance plan
submitted in response to the Government Performance and Results Act.  The
compilation of program-wide data on open and closed cases is an integral part of
the management oversight process and also allows LSC management to keep its
Board of Directors and the Congress informed of significant program activities and
performance.  In response to the annual reporting requirement, the grantee
submitted the following information to LSC:
Type of Legal ProblemOpenClosed
Consumer/Finance4451,002
Education128
Employment1263
Family1,2611,641
Juvenile523
Health183365
Housing1,5051,339
Income Maintenance1,2641,785
Individual Rights5638
Miscellaneous210420
TOTALS4,9536,684
Examination of Reported Cases
The grantee should have reported 4,104 closed cases and 2,607 open cases
in its 1998 Grant Activity Report.  The following chart provides the details of the
overstatements.
REASON FOR OVERSTATEMENT
CLOSED
CLIRP CASES1,410
UNTIMELY CLOSING868
OVER INCOME116
NON-LSC CASES58
NO LEGAL SERVICES58
UNSUPPORTED CASES42
DUPLICATE CASES28
TOTAL CLOSED2,580
OPEN
REJECTED APPLICANTS1,227
UNTIMELY CLOSING883
MISSING CASE FILES163
UNSUPPORTED CASES66
DUPLICATE CASES7
TOTAL OPEN2,346
CLOSED CASES
CLIRP Cases
The grantee improperly reported 1,410 closed cases that the Community Legal
Intake and Referral Project (CLIRP) processed.  The grantee provided $18,000, or
about 18.7 percent of CLIRP's 1998 funding. CLIRP reported to the grantee that it
closed 7,545 cases in 1998. The grantee's Grant Activity Report included 1,410
(18.7 percent x 7,545) of the cases CLIRP reported as closed.
For several reasons, the 1,410 cases should not have been reported in the
1998 Grant Activity Report. The number of cases reported was not supported by a
list of specific cases. The grantee had no assurance that the clients were eligible
for assistance because the grantee did not have controls to ensure that cases
processed by CLIRP met LSC eligibility regulations. There was no formal agreement
between the grantee and CLIRP requiring CLIRP to adhere to laws and LSC
regulations. Further, CLIRP reported closing 7,545 cases including 5,144 (68
percent) that were classified as "Referred after Legal Assessment."  CLIRP's intake
staff screened these calls and then referred callers to the appropriate provider of
legal services.  No legal assessment was made regarding these 5,144 cases.
Therefore, 68 percent of the CLIRP cases claimed by the grantee were classified as
"Referred after Legal Assessment" even though the cases did not involve the
provision of legal services.
Untimely Closure of Cases
The OIG estimated that 868 cases were incorrectly reported as closed in
1998 because legal activity on the cases had ceased before 1998.  We reviewed
95 closed cases and determined that 15 should have been closed in years prior to
1998.
Other Problems with Closed Case Counts
The incorrect reporting of CLIRP cases and cases on which legal services ceased
prior to 1998 were the causes of the two largest closed case errors in the Grant
Activity Report. However, other overstatements of closed cases also occurred.
Auditors estimated that an additional 302 closed cases should not have been
reported in five additional categories of errors.
The Grant Activity Report included an estimated 116 cases where client
incomes exceeded allowable amounts. Grantees may use LSC funds to service
clients whose annual income level does not exceed 125 percent of the amount
set forth in the Federal Poverty Income Guidelines. In some circumstances an
individual whose income is between 125 and 187.5 percent of the poverty
guidelines may be provided legal assistance.  Review of the documentation in
two sampled case files disclosed that client incomes exceeded the amounts
allowed.
The Grant Activity Report included an estimated 58 cases that were not funded
by the LSC in whole or in part.  Review of the documentation in the case files
sampled disclosed that one case was fully funded by another organization.
The Grant Activity Report included an estimated 58 cases where no legal
services were provided.  Review of the documentation in the case files sampled
found that one case did not involve the provision of legal services.
The Grant Activity Report included 42 cases more than the total number stated
in the grantee's detailed listings of closed cases generated from the grantee's
automated information systems.  These 42 cases were not supported and
should not have been reported to LSC.
Auditors identified 28 cases that were duplicates, i.e., the same case was found
in the case management system more than once. The duplicates occurred
because clients made multiple requests for assistance that were recorded as
separate cases, even though the same legal problem was involved.
OPEN CASES
Rejected Cases
The grantee's branch office reported 1,227 open cases for applicants whose
requests for legal assistance had been rejected. The applicants did not meet
eligibility criteria and were not accepted as clients. These rejected applicants
received no legal services but were counted as cases and included in the 1998
Grant Activity Report as open at year-end.
Untimely Closure of Cases
An estimated 883 cases open at the end of 1998 should have been closed
because legal activity had ceased.  We reviewed 75 open cases and determined
that 27 should have been closed.  Nineteen of the 27 cases should have been
closed in 1997 or earlier years.
Other Problems with Open Case Counts
The incorrect reporting of rejected clients as cases and cases that should have
been closed because legal services were no longer being provided were the causes
of the two greatest errors in the number of reported open cases.  However, other
overstatements of open cases also occurred.  Auditors estimated that an additional
236 open cases should not have been reported.  There were three categories of
errors.
The grantee could not locate 5 of the 75 sample case files requested by our
office.  Therefore, we estimated that 163 cases were not supported with files
and therefore should not have been reported to LSC.
The Grant Activity Report included 66 cases more than the total number in the
detailed open case listings that were generated from the grantee's automated
information systems.  These 66 were not supported by case documentation and
therefore should not have been reported to LSC.
Review of documentation identified 7 cases that were duplicates of other cases.
Clients made multiple requests for assistance that were recorded in the
grantee's case management system as separate cases even though the same
legal problem was involved.
ADDITIONAL CASE MANAGEMENT ISSUES
Eligibility Determinations
Citizenship eligibility was not documented for 31 of the 170 sample cases
reviewed by the OIG.  In addition, five cases did not include income eligibility
determinations.  All but two of the cases lacking eligibility documentation were
processed by the two subgrantees funded by the grantee.
CONCLUSIONS
The grantee needs to improve the accuracy of the case statistics reported in
the Grant Activity Report.  Its 1998 report significantly overstated both closed and
open cases because the grantee included cases that should not have been reported
to LSC, and because cases were not closed in a timely manner.  Grantee
management needs to ensure that the Grant Activity Report only includes cases
that meet LSC's definition of a case and needs to improve controls over the
processing of cases.  The grantee also needs to provide closer oversight over the
sub-grantees in the area of eligibility determinations.
RECOMMENDATIONS
The OIG recommends that grantee management:
Discontinue the practice of including CLIRP cases in the Grant Activity
Report.
Formally instruct staff that cases should be closed in the year legal
activity ceased.
Implement procedures to periodically review a sample of closed cases and
determine if cases are being closed in a timely manner.
Implement procedures to periodically review a sample of open cases and
determine if cases are being properly classified as active.
Implement procedures to periodically review a sample of open and closed
cases and verify that files are readily available.
Review cases opened prior to 1999 to determine if legal services are
being provided, and close those that are no longer being serviced.  (Note:
Cases that were completed prior to 1999 should not be included in the
1999 Grant Activity Report.)
Review the details of case listings and ensure that rejected cases are
excluded from the Grant Activity Report.
Implement procedures to periodically review a sample of open and closed
cases handled by the subgrantees and verify that eligibility determinations
are being made regarding the client's citizenship and income.
Submit to LSC a revised 1998 Grant Activity Report that accurately
reports the number of cases closed during the year and the number open
at year-end.
SUMMARY OF GRANTEE COMMENTS AND OIG DECISIONS
Summary of Grantee's Comments
The grantee disagreed with most of the report findings on the overstatement
of closed and open cases.  The grantee asserted that many of the cases cited as
erroneous were properly reported in the 1998 Grant Activity Report.  The
comments indicated that the OIG's findings were contrary to LSC rules,
regulations, and practices.
The grantee's comments are found in Appendix II.
OIG's Decision
The grantee's comments did not provide any new information.  No
documentation was provided to support the grantee's assertion that the OIG's
findings were contrary to guidelines prescribed by LSC.  We concluded that factual
changes to the report were not warranted.  The OIG reaffirms its findings including
the number of case counting errors stated in the audit report.
GRANTEE'S SPECIFIC COMMENTS AND OIG DECISIONS
Closed Cases
Grantee's Comments: CLIRP Cases
The grantee's comments asserted that the closed cases attributable to CLIRP
were properly included in the 1998 Grant Activity Report.  The draft audit report
stated that the CLIRP cases should not be reported because:  the cases were not
supported by a detail list of clients, the grantee had no assurance that the clients
were eligible for assistance, and no legal services were provided for the cases
closed to the category "referred after legal assessment"
The grantee asserted that it was not necessary to have a detail list of clients
supporting the closed CLIRP cases.  According to the grantee, in the past LSC has
accepted a percentage of Private Attorney Involvement cases and a percentage of
elderly cases in lieu of a detail listings of clients.  The grantee also stated that it
was reasonable to report a percentage of closed CLIRP cases.  In addition, no
regulation precludes reporting cases on a percentage basis.
The grantee stated that that there is no formal agreement requiring CLIRP to
adhere to LSC regulations.  However, CLIRP intake workers determine if callers
meet eligibility guidelines since all legal service providers use the same guidelines.
Because the OIG did not review any CLIRP cases, there is no evidence that CLIRP
did not apply LSC guidelines.
The grantee's comments stated that CLIRP intake workers obtained eligibility
information and provided some assistance to individuals whose cases were closed
as "referred after legal assessment."  These cases represent 68 percent of the
closed CLIRP cases.  The OIG rejected these cases as well as the 32 percent of
cases closed to other categories without reviewing any cases.
The comments stated that local and state bar foundations and IOLA all
financially support CLIRP as a single point of contact for the poor people seeking
assistance from the multiple legal service providers in Monroe County.  According
to the grantee:  CLIRP intake paralegals spend an average of eleven minutes with
each caller; the CLIRP supervising attorney reviews the contacts for quality control;
CLIRP intake paralegals often contact the grantee's advocates with questions
regarding what information should be provided to the caller.  The grantee stated
that the CLIRP cases should be counted.
OIG Decision
Using CLIRP as a single intake point appears to be a good approach to
providing legal services to the eligible people in Monroe County.  The cases CLIRP
refers to the grantee and for which the grantee provides legal services should be
included in the Grant Activity Report.  However, it is not reasonable to include a
percentage of all CLIRP closed cases in the Grant activity Report, when the grantee
lacks any documentation on the cases.
No documentation was provided to support the grantee's contention that the
CLIRP cases were properly reported.  The grantee's 1998 Grant Activity Report
included 1,410 cases attributable to CLIRP.  However, the grantee did not provide
legal services for these cases.  Providing legal service is a prerequisite to reporting
a case.  Furthermore, for the 1,410 cases the grantee did not know:  (1) the
clients' identity; (2) if the clients met LSC eligibility guidelines; (3) the nature of the
client's legal problems; and (4) the type of legal services provided or what
organization provided the services.
The grantee stated that the OIG did not review any CLIRP cases.  The
grantee could not identify or provide a list of the 1,410 CLIRP cases reported in the
Grant Activity Report.  We could not review the CLIRP cases without this
information.
After reviewing the audit workpapers and the grantee's comments, the OIG
concluded that much of CLIRP's workload related to switchboard type services that
did not include the provision of legal services.
Grantee's Comments:  Untimely Closure of Cases
The grantee's comments stated that it was not practicable to close out all
cases in 1998 in which legal activity had ceased.  In addition, the grantee asserted
that the 1999 CSR Guidelines did not require the grantee to close out cases in
which legal activity had ceased where a higher level of service was provided
beyond counsel and advice, brief service or referral.
After reviewing 20 closed files at the grantee's branch office, the OIG found
that five cases were closed in 1998 that should have been closed in previous
years.  The grantee asserted that four of these cases were not erroneously closed.
One case, (7949), was closed as a code H, administrative agency decision and
under LSC guidelines in force at the time, was not an error.  In addition, three
cases (9306, 9505, and 9768) were closed at the branch office by advocates
manually late in 1997.  These three cases were closed after the branch office's
case management system crashed and the cases could not be entered into the case
management system and therefore "officially closed" until 1998.  The grantee
provided a lengthy explanation of the problems the branch office had to overcome
in 1998 and stated that the cases could not have been closed in a timely manner
and therefore should not be treated as errors.
OIG Decision
The grantee incorrectly interpreted the LSC guidelines relating to the timely
closing of cases.  On November 24, 1998 LSC issued a revised CSR Handbook.
The revised Handbook states that "Programs shall ensure the timely closing of
cases so that case service reports submitted to LSC contain current and accurate
information about both open and closed cases for the grant year (January 1
through December 31)."  The revised handbook also addresses cases that do not
involve counsel and advice, brief service, or referral after legal assessment.
Section 3.3(b) states that  "All other cases (CSR Categories D through K) should be
reported as having been closed in the year in which program staff makes a
determination that further legal assistance is unnecessary, not possible or
inadvisable, and a closing memorandum or other case-closing notation is prepared."
Both provisions applied to the data included in the1998 Grant Activity Report.
The Managing Attorney at the branch office reviewed case number 7949
with the OIG and stated that it should have been closed in July 1997.  Even
though this case was closed to code H, it should have been reported in the year
that legal services ceased.  The grantee's comments stated that case numbers
9306, 9505, and 9768 were closed manually in 1997 but were not entered into
the case management system and not reported until 1998.  The grantee's
comments indicate that the OIG accurately reported that legal assistance on these
three cases ceased prior to 1998.
Grantee's Comments:  Other Problems With Closed Case Counts
The grantee agreed that the OIG found two case files in which the client's
income exceeded LSC guidelines.  However, the grantee did not agree with the
projection of 116 over income clients based on the sample findings.  The grantee
stated that the sample was not statistically valid.
The grantee agreed that the file for one sample case indicated that the case
was paid in full by a source other than LSC.  In fact, this only represented the
funding source for the advocate's time spent on the case.  The grantee stated that
the OIG erroneously concluded that this case could not be counted as an LSC case.
At one of the sub-grantee offices the OIG found 42 more cases reported to
LSC than were in the case management system.  Some cases reported as closed
were not closed in the case management system because, although work ceased,
they were not entered into the system.  They were, however, reported as closed,
thereby setting up a discrepancy between the number reported to LSC and the
number of closed cases supported by the case management system.
OIG Decision
The OIG estimated that 116 cases involved clients whose income exceeded
LSC guidelines.  This estimate was based on a statistically valid sample of 170
closed and open cases.  This sample size provides a 90 percent confidence level in
projecting the error rates disclosed during our review.
After reviewing case number 98-01-011339 with the OIG, the Managing
Attorney at the branch office stated that no LSC funds were spent on the case.
The OIG determined that the grantee's detailed listings of closed cases
contained 42 cases less than the total number reported to LSC.  We were not able
to determine the client's name or other identifying information and therefore the
existence of these 42 cases could not be verified.
OPEN CASES
Grantee's Comments:  Rejected Cases
The grantee agreed that, because of a computer programming error, 1,227
rejected applicants were incorrectly reported as open cases.
Grantee's Comments:  Untimely Closure of Cases
According to the grantee, the ten open cases identified at the branch office
as not being timely closed, eight were eventually closed out or will be closed out at
a higher level of service than advice and brief service and therefore may be carried
over into 1999.  Because LSC had given programs the option of closing out higher
level of service cases in 1998 or 1999 where level activity had ceased in 1998, the
grantee asserted that these eight cases should not have been found to be in error.
The OIG stated that 15 open cases at one sub-grantee should have been closed.
All of these cases were impractical to close because the sub-grantee had no staff
to enter data on its case management system.
OIG Decision
The Managing Attorney at the branch office confirmed that the ten cases
should not have been reported as open at the end of 1998.  During the audit,
grantee management stated that all of these cases should have been closed in
1997 or earlier.  The OIG reviewed case files with the sub-grantee's Executive
Director who verified that 15 cases reported as open as of December 31, 1998
were not active and should have been closed.  As previously stated, both the old
and revised CSR Handbooks clearly indicated that the Case Service Report is
intended to collect annual data for the specific grant year and not cumulative
statistics on prior year services.   Otherwise annual reports would be meaningless.
Grantee's Comments:  Other Problems With Open Case Counts
The grantee agreed that the OIG found five cases for which there was no
supporting files but objected to the estimation that 163 reported cases were in
error.
The 66 open cases at the sub-grantee where there was no documentation in
the case management system were all eligible cases in which legal work was being
provided.  Prior to when the sub-grantee computerized intake, case data was
manually entered into the case management system.  Due to staff shortages some
cases were not promptly entered into the system even though advocates were
providing legal services.  The advocates maintained manual lists of these cases.  At
any one time, the manual compilation of cases did not necessarily match the
computerized list because of the time lag in entering information into the
computerized system.  However, some of these open cases were reported even
though they were not open on the case management system.
OIG Decision
The OIG estimated that 163 cases were not supported with files and
therefore should not have been reported to LSC. This estimate was based on a
statistically valid sample of 170 closed and open cases.  This sample size provides
a 90 percent confidence level in projecting the error rates disclosed during our
review.
The OIG determined that the grantee's detailed listings of open cases
contained 66 cases less than the total number reported to LSC.  We were not able
to determine the client's name or other identifying information and therefore the
existence of these 66 cases could not be verified.
Grantee Comments on Recommendations
The grantee agreed with the recommendations in the draft audit.  The
comments stated that six of the OIG's recommendations (#2, 3, 4, 5, 6, and 7)
had already been implemented when the audit was performed.  The other three
recommendations (#1, 8, and 9) will be implemented.  The grantee stated that a
revised Grant Activity Report for 1998 (Recommendation 9) would not be
submitted to LSC until the grantee works out the number of errors with the OIG.
OIG Decision
The OIG reaffirms its findings and recommendations.  The grantee should
submit a revised 1998 Grant Activity Report that reflects a reduction of 2,580
closed cases and 2,346 open cases.  The submission of the report should be
coordinated with LSC management.
The grantee's comments indicated that Recommendation 2, "Formally
instruct staff that cases should be closed in the year legal activity ceased" had
been implemented.  However, according to the grantee's comments the staff was
told that only advice and brief services cases should be closed in the year legal
services cease.  This is incorrect.  All cases should be closed when legal services
are no longer provided.
All recommendations are considered unresolved.  Please provide a corrective
action plan for implementation of the recommendations.  The corrective action plan
should include a description of the action taken to implement the recommendations
and the dates corrective action was completed, or will be completed for the
recommendations not yet implemented.  Please submit the corrective action plan to
the OIG within 30 days of the date of this report
APPENDIX I
LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
Findings:
1.Closed cases were overstated (page 6).Recommendations #1-3 and 5-9
2.Open cases were overstated (page 7)Recommendations #4-6 and 8 and 9
3.Other Case Management Issues (page 8)Recommendation #8
Home | Reports | Top |
Table of Contents
Appendix II -- Grantee Response to Draft Report